BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna Wolf, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Brief of Amicus
Curiae The Foundation for Government Accountability
in Support of Petitioners in 20-37, Alex M. Azar, II,
Secretary of Health and Human Services, et al.,
Petitioners v. Charles Gresham, et al.; 20-38, Arkansas
v. Charles Gresham, et al., was sent via Next Day
Service to the U.S. Supreme Court, and via Next Day
and e-mail service to the following parties listed below,
this 26th day of January, 2021:
Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas. bronni@arkansasag.gov

Counsel for Petitioner
State of Arkansas
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners Alex M. Azar, II,
Secretary of Health and Human Services, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Ian Heath Gershengorn
Jenner & Block
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6869
IGershengorn@jenner.com

Counsel for Respondents
Charles Gresham, et al.
Laura E. B. Lombardi
New Hampshire Department of Justice
33 Capitol Street
Concord, NH 03301-6397
(603) 271-3650
laura.lombardi@doj.nh.gov

Counsel for Respondent New Hampshire
Department of Health and Human Services

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 26, 2001.

D~naJ.w~
O
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

j~'

.

-I

'- ·r ( j CJG, c)0 d

(JvktJ .
~

Notary Public
[seal]

b~k
V

